              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
The Department’s Federal Purchase
Card Program at Headquarters




DOE/IG-0675                                 February 2005
REPORT ON THE DEPARTMENT'S FEDERAL PURCHASE
CARD PROGRAM AT HEADQUARTERS



TABLE OF
CONTENTS



              Headquarters Purchase Card Practices


              Details of Finding............................................................. 1

              Recommendations and Comments ................................. 7

              Comments ....................................................................... 8


              Appendices

              1. Summary of Review Results ...................................... 9

              2. Objective, Scope, and Methodology ........................ 10

              3. Prior Reports............................................................ 12

              4. Management Comments.......................................... 15
HEADQUARTERS PURCHASE CARD PRACTICES_______
Headquarters Purchase The Department of Energy's (Department) Headquarters
Card Program          purchase card program was not always administered
                      in an efficient manner and implementation of controls
                      was sometimes inadequate. Our audit found that
                      Headquarters organizations did not take full advantage of a
                      required electronic system intended to streamline
                      procurements, and that purchase card controls were not
                      sufficient to prevent or detect violations of policies. In
                      addition, some cardholders had purchase limits that
                      exceeded their documented delegation of purchase
                      authority, were not aligned with their demonstrated needs,
                      or should have been terminated because they were no
                      longer needed.

                                         Electronic Procurement System

                           Headquarters program offices were not fully realizing the
                           efficiency and control benefits available by using the
                           Simplified Electronic Commerce System (DOE/C-Web).
                           During Fiscal Year (FY) 2003, Headquarters employees
                           made over 8,700 purchases with a purchase card at a cost of
                           approximately $13.4 million. We learned, however, that
                           1,900 of these transactions, or about $2.8 million of the
                           total, were executed without the benefit of DOE/C-Web.
                           This internet-based system was designed to streamline the
                           procurement process by automating the requisition,
                           solicitation, funding, and approval processes.

                           DOE/C-Web offers several advantages, such as
                           electronically notifying vendors of solicitations they may
                           bid on and awards they have received. It is particularly
                           suited to paying for purchases with a purchase card, in part,
                           since it directly interfaces with the Department's accounting
                           system and provides a secure processing environment. In
                           addition, a description is required with an amount for each
                           item purchased, a practice that facilitates oversight
                           activities such as mining purchase data for potentially
                           fraudulent or prohibited transactions. The Headquarters
                           Procurement Services Policies and Operating Procedures
                           for the Use of the Government Purchase Card requires that
                           all Headquarters organizations use DOE/C-Web for all
                           their purchase card procurements.




________________________________________________________________
Page 1                                            Details of Finding
________________________________________________

                                     Purchase Card Transactions

                      Purchase cardholders at 17 Headquarters program offices
                      also did not regularly follow existing purchase card
                      procedures when executing transactions. For example, we
                      identified problems in 143 of the 166 transactions
                      (86 percent) we reviewed that increased the risk of credit
                      card misuse (see Appendix 1 for details.) For example, we
                      found that purchase cardholders and/or approving officials:

                           •   Followed inappropriate procurement practices,
                               including making a $3,000 payment to a florist
                               who accepted it on behalf of a legal service firm
                               for a patent-related service, and several purchases
                               in which purchase card numbers were shared;

                           •   Purchased over $47,000 of property that was not
                               recorded in the Department's property
                               management system, as well as $16,000 in
                               property that was recorded incorrectly;

                           •   Did not review periodic transaction statements for
                               accuracy or perform timely reviews to ensure that
                               charged transactions were valid;

                           •   Completed purchases without proper
                               authorization or pre-approval of funding;

                           •   Did not provide sufficient supporting
                               documentation to show that purchased items were
                               actually received, and, in several cases, that
                               competitive bids had been obtained to ensure that
                               the Department paid a reasonable price for the
                               item acquired; and,

                           •   Purchased several items that we questioned as an
                               inappropriate use of the purchase card.

                                Purchase Card Privileges and Accounts

                      Some cardholders had been granted privileges that
                      exceeded their documented purchasing authority, were not
                      aligned with their needs, or should have been terminated
                      because of lack of use. Specifically, we found:



________________________________________________________________
Page 2                                            Details of Finding
________________________________________________

                      •   Purchase card authority was not adequately documented
                          for 21 of the cardholders. For example, Bank of
                          America's Electronic Account Government Ledger
                          System (EAGLS) showed four cardholders had limits
                          that were higher than the documented limit delegated to
                          the cardholder by Headquarters Procurement Services.
                          Two of these cardholders also made a total of 36
                          transactions in excess of their documented delegated
                          purchasing authority, for a total of over $345,000.

                      •   Thirty-seven cardholders made only one or no
                          purchases during FY 2003, and an additional 38
                          cardholders with monthly credit limits of at least
                          $100,000 who made less than $10,000 in total
                          purchases during the fiscal year.

                      •   Nine individuals whose accounts were open in EAGLS,
                          but had either left the Department or told us that they
                          no longer held a credit card. While there were no
                          recent purchases made on those accounts, they all
                          should have been closed a year or more ago, with one
                          account that should have been closed more than five
                          years earlier.


Program Controls      DOE/C-Web was not fully utilized because programs did
                      not follow Department policy for using the system, and
                      Headquarters Procurement Services did not enforce its use.
                      In addition, the errors we found during our review of
                      purchase card transactions were caused by problems with
                      program oversight, purchase card training, and related
                      purchase card procedures.

                                          Using DOE/C-Web

                      Several programs did not require cardholders to use
                      DOE/C-Web. Representatives from these offices told us
                      that they did not use the system for reasons such as
                      personnel turnover, vacancies, and small numbers of
                      transactions. In some cases, cardholders indicated that they
                      were not aware that DOE/C-Web existed or that its use was
                      required by purchase card procedures. Additionally, even
                      though Headquarters Procurement Services had the
                      authority to enforce use of DOE/C-Web, it chose not to do
                      so. A Headquarters Procurement Services official stated

________________________________________________________________
Page 3                                            Details of Finding
________________________________________________

                      that use of DOE/C-Web was not enforced because the
                      system was not always the most efficient way to make
                      purchases for certain classes of transactions such as very
                      small dollar purchases. However, in order to respond to
                      new Federal reporting requirements, the Department now
                      plans to enforce the use of DOE/C-Web for all purchases
                      over $2,500.

                                        Purchase Card Training

                      A lack of training contributed, at least in part, to problems
                      we observed. Several cardholders responsible for the errors
                      cited in this report indicated that they had not been properly
                      trained. In 35 cases, Headquarters Procurement Services
                      issued cards to individuals even though their application
                      forms showed that initial training requirements were not
                      met. Similarly, 15 approving officials could not provide or
                      did not respond to our request for evidence that they
                      received required training. We also noted that
                      Headquarters Procurement Services does not require
                      cardholders or approving officials to certify that they have
                      read and understand purchase card procedures prior to
                      accepting the card for use or periodically thereafter. The
                      Government Accountability Office (GAO) has noted that
                      proper training of both cardholders and approving officials
                      is a key element of internal controls.

                      According to a Headquarters Procurement Services official
                      the Department strengthened its training program including
                      requiring new cardholders and approving officials to
                      complete training prior to becoming cardholders or
                      approving officials and periodic refresher training for
                      cardholders. Despite these improvements, the results of our
                      review indicate that some cardholders continue to not be
                      fully apprised of their roles and responsibilities.

                                        Purchase Card Oversight

                      While Headquarters Procurement Services conducted a
                      number of reviews of the purchase card program, they were
                      not always rigorous enough to identify suspect transactions.
                      Annual reviews performed of various program aspects
                      disclosed a number of items requiring resolution; however,
                      monthly reviews were not always documented or sufficient
                      in scope. For example, a Headquarters Procurement
                      Services official stated that monthly reviews were

________________________________________________________________
Page 4                                            Details of Finding
________________________________________________

                      conducted, but she could not provide documentation
                      supporting that assertion. Furthermore, the monthly review
                      methodology described by the procurement official would
                      not be adequate to identify suspect transactions because it
                      could not identify what items were purchased; an essential
                      element in determining whether the transaction was for
                      legitimate purposes. Specifically, the review methodology
                      generally included a visual scan of the EAGLS database
                      that contains information such as the vendor names and an
                      amount purchased, but does not describe the items
                      purchased. The review methodology also did not include
                      data mining DOE/C-Web to discover suspect items or
                      verifying that property was entered into the property
                      management system.

                      With regard to oversight of purchase card privileges, a
                      senior Headquarters Procurement Services official told us
                      that the Department had reviewed the appropriateness of
                      purchase card authorization limits in FY 2003 but had not
                      always been successful in reducing privileges to
                      appropriate levels. The official noted that some program
                      offices and/or cardholders resisted a reduction in purchase
                      limit levels and justified the higher limits because of
                      potential needs driven by mission requirements. The
                      Headquarters Procurement Services official told us that the
                      Department had planned to revisit the continuing mission
                      need justification for the higher limits. Finally,
                      Headquarters Procurement Services officials told us that
                      they have had difficulties terminating cardholders purchase
                      privileges because the bank sponsoring the cards
                      sometimes fails to act on termination notifications sent by
                      the Department.

                                      Purchase Card Procedures

                      Additionally, purchase card guidance did not adequately
                      define the responsibilities of purchase cardholders for
                      accountability, property, or supporting documentation. For
                      example, the procedures do not define the types of property
                      that need to be recorded in the Department's property
                      management system, or refer cardholders to related
                      Departmental directives for clarification. Further, the
                      procedures also did not describe the types of documentation
                      cardholders should obtain to evidence receipt of goods.




________________________________________________________________
Page 5                                            Details of Finding
________________________________________________

Opportunities for       By not fully utilizing DOE/C-Web, the Department is
Savings and             foregoing the opportunity to increase the efficiency of
Strengthened Controls   almost $3 million in purchases. Additionally, without
                        effective, properly functioning controls over the purchase
                        card program, the Department is vulnerable to fraudulent
                        and abusive use. While we did not find any indications of
                        fraudulent activity, without improvement the Department's
                        $13 million in annual purchase card procurements will
                        remain susceptible to restricted, prohibited, and
                        questionable purchases. As noted by GAO, control
                        weaknesses similar to those we observed led to fraudulent
                        purchases at the Department of Navy for items such as
                        stereos, digital cameras, and other electronic equipment
                        purchased for personal use.


Corrective Actions      To its credit, the Department's Office of Management,
                        Budget and Evaluation/Chief Financial Officer (OMBE)
                        has taken corrective actions since our review started.
                        Specifically, Headquarters Procurement Services is
                        working on implementing DOE/C-Web and plans to
                        enforce its use for purchases over $2,500. Headquarters
                        Procurement Services has also recently assigned additional
                        resources to oversee its purchase card program, and is in
                        the process of implementing a software package that would
                        permit data mining of purchase card transactions.
                        Additionally, Headquarters Procurement Services has acted
                        on some of the issues identified during our audit, including
                        requiring cardholders to take additional training.
                        Furthermore, OMBE's Office of Administration has started
                        tagging and tracking the property items as necessary.




________________________________________________________________
Page 6                                            Details of Finding
________________________________________________

RECOMMENDATIONS      To strengthen the Department's controls over Federal
                     purchase card procurements at Headquarters, we
                     recommend that the Director of the Office of Management,
                     Budget and Evaluation/Chief Financial Officer direct
                     Headquarters Procurement Services to:

                        1. Ensure that program officials and purchase
                           cardholders are knowledgeable of DOE/C-Web
                           benefits and the requirement to use it;

                        2. Require cardholders and approving officials to
                           periodically certify they have read and understand
                           the Headquarters purchase card policies and
                           operating procedures;

                        3. Suspend privileges for all cardholders who have not
                           received training;

                        4. Plan and conduct monthly reviews of purchase card
                           transactions that employ data mining of transactions
                           to identify unusual item descriptions for follow-up
                           and tests to ensure that purchased property has been
                           entered into property accountability systems;

                        5. Ensure that cardholders' privileges are justified by
                           mission needs, and perform periodic follow-up with
                           the bank sponsoring the purchase card to ensure that
                           privileges are terminated when appropriate; and,

                        6. Clarify Headquarters purchase card policies and
                           procedures to provide guidance on the responsibility
                           of cardholders for property accountability.


MANAGEMENT           The Director, Office of Management, Budget and
REACTION             Evaluation/Chief Financial Officer, generally concurred
                     with the conclusions and recommendations, stating that the
                     report identified a number of purchase card-related
                     activities which present opportunities for improvement
                     including expanded use of DOE/C-Web for purchases over
                     $2,500; annual certifications to the understanding of
                     policies and procedures; and, review and monitor
                     cardholder spending limits.




________________________________________________________________
Page 7                               Recommendation and Comments
________________________________________________


                     Management, however, disagreed with the assertion that
                     the situations of noncompliance with certain purchase card
                     policies and procedures resulted from several programs not
                     processing transactions via DOE/C-Web. Management's
                     comments have been included in their entirety as
                     Appendix 4.


AUDITOR COMMENTS     Management comments are generally responsive to our
                     recommendations. As noted in the body of our report, we
                     did not intend to assert that noncompliance with purchase
                     card policies or procedures were caused by not using
                     DOE/C-Web. Rather, we believe that the Department was
                     not realizing the efficiency and control benefits provided by
                     or through the use of DOE/C-Web because, despite
                     guidance to the contrary, cardholders were not required to
                     use the system. The errors we found during our review of
                     purchase card transactions were primarily attributable to
                     problems with purchase card training, program oversight,
                     and related purchase card procedures. We have revised our
                     report to clarify the distinction between the use of DOE/C-
                     Web and the reasons for not following existing purchase
                     card procedures when executing transactions.




________________________________________________________________
Page 8                                                 Comments
Appendix 1______________________________________

                             SUMMARY OF REVIEW RESULTS

During our review we tested 166 transactions (purchases and returns or other
adjustments) totaling $618,000 and found errors in the execution of 1431 of those
transactions. The errors we found are described below:


    • Five purchases totaling about $5,182 that were inappropriate practices, including the
      payment to a florist who accepted it on behalf of a legal service firm; temporary
      services that continued longer than eight months; and purchases made by employees
      who were not authorized cardholders;

    • Ten purchases totaling $47,000 for physical property that were not tagged as
      Department property and tracked in the Department's asset management system,
      including a Toshiba color copier; 11 BlackBerrys; stereo speakers; a time clock; and a
      13-inch television;

    • Two purchases totaling $16,000 for property that was not accurately tracked in the
      Department's asset management system property records, including a camera control
      unit and a copier;

    • The purchase of 121 items totaling $435,000 that failed to follow prescribed
      procurement practices, including untimely review by approving officials or
      cardholders; and improper authorization or pre-approval of funding. In addition,
      controls essential for ensuring that individual purchases were appropriate were not
      followed, such as cardholders not documenting that they reconciled their purchases;
      and cardholders or approving officials not signing and dating the statements of account;

    • Seventy-six purchases totaling $329,000 without sufficient supporting documentation,
      including 5 purchases over $2,500 that did not indicate the receipt of competing bids or
      justification for sole-source procurement; and purchases that did not have a receipt of
      goods prior to payment; and,

    • Six purchases totaling approximately $4,957 for items that we questioned as an
      inappropriate use of the purchase card, including the purchase of recruitment
      advertising in the Washington Post without any evidence that the purchaser had
      obtained the required prior approval of the contracting officer; continued charges for
      America Online, even though the Department has its own secure access to the Internet;
      the printing of posters and flyers; the acquisition of an air purifier that could have been
      centrally procured by the Department; and food items.




1
 In some instances single transactions accounted for multiple errors. Therefore, the aggregate number of
purchases cited above is greater than the total number of transactions reviewed.

________________________________________________________________
Page 9                                    Summary of Review Results
Appendix 2______________________________________

OBJECTIVE             To determine whether the Department was cost-effectively
                      monitoring and controlling its purchase card system at
                      Headquarters.


SCOPE                 The audit was performed between December 2003 and
                      October 2004 at Department Headquarters in Washington,
                      D.C., and Germantown, MD. We evaluated whether the
                      Department had implemented controls over the use of
                      streamlined procurements by Federal employees at
                      Headquarters.


METHODOLOGY           To accomplish our audit objective, we:

                           •   Reviewed applicable Departmental and
                               Headquarters guidelines, policies, and operating
                               procedures pertaining to use of the Government
                               purchase card and the DOE/C-Web electronic
                               purchasing system;

                           •   Reviewed relevant reports issued by the Office of
                               the Inspector General, the Government
                               Accountability Office, and the Office of
                               Management, Budget and Evaluation/Chief
                               Financial Officer;

                           •   Reviewed the Government Performance and
                               Results Act of 1993 and determined whether
                               performance measures had been established for
                               purchase cards;

                           •   Observed demonstrations of key purchase card
                               and DOE/C-web policies, processes, and
                               procedures;

                           •   Identified the universe of FY 2003 purchase card
                               transactions made at Headquarters as of
                               September 11, 2003;

                           •   Selected a sample of purchase card and
                               convenience check transactions from Bank of
                               America's Electronic Account Government
                               Ledger System (EAGLS) using two different
                               methods. The two methods are as follows:


________________________________________________________________
Page 10                            Objective, Scope, and Methodology
Appendix 2 (continued)____________________________


                                  1. Data Mining / Judgmental Sampling. We
                                     performed data mining on the universe of
                                     FY 2003 purchase card and convenience
                                     check transactions. Specifically we
                                     performed data mining techniques, using
                                     Audit Command Language (ACL), to
                                     identify and extract transactions with
                                     potentially improper merchant category
                                     codes, Federal holiday purchases,
                                     weekend purchases, and potentially split
                                     purchases. Using the data mining results,
                                     we judgmentally selected a sample of
                                     transactions for review. We also
                                     judgmentally selected a sample of
                                     convenience check transactions; credit
                                     transactions; and specific for FYs 2002,
                                     2003, and 2004 transactions that, on the
                                     surface, appeared questionable; and,

                                  2. Random Sampling. To ensure broader
                                     coverage, we selected a random sample of
                                     FY 2003 purchase card transactions for
                                     review. Specifically, we used ACL to
                                     randomly select transactions from two
                                     separate strata---those transactions up to
                                     $2,500 and those over $2,500.

                           •   Held discussions with personnel from Department
                               Headquarters, including representatives from the
                               Office of Headquarters Procurement Services,
                               Capital Accounting Center, Property and Supply
                               Management Team, and individual purchase
                               cardholders; and,

                           •   Reviewed documentation for the sample of
                               purchase card transactions against Departmental
                               and Headquarters guidelines, policies, and
                               operating procedures. We also reviewed
                               cardholder and approving official files maintained
                               by the Office of Headquarters Procurement
                               Services and overall FY 2003 purchase card
                               activity.




________________________________________________________________
Page 11                            Objective, Scope, and Methodology
Appendix 2 (continued)____________________________

The audit was conducted in accordance with generally accepted Government auditing
standards for performance audits and included tests of internal controls and compliance
with laws and regulations to the extent necessary to satisfy the audit objectives.
Accordingly, we assessed internal controls regarding streamlined procurement practices.
Because our review was limited, it would not necessarily have disclosed all internal
control deficiencies that may have existed at the time of our audit. In conducting our
audit, we relied on computer-processed data from the credit card issuer. We tested the
accuracy of this data by tracing it to source documents and concluded it was sufficiently
reliable to meet our audit objectives. As part of our review, we determined that the
Department established performance measures for the purchase card program, but did not
establish measures on implementing DOE/C-Web. Therefore, we could not assess how
measures in this area might have been used to measure performance.

Management waived the exit conference.




________________________________________________________________
Page 12                            Objective, Scope, and Methodology
Appendix 3 ______________________________________

                                   PRIOR REPORTS


Office of Inspector General Reports

 •   Special Inquiry: Operations at Los Alamos National Laboratory (DOE/IG-0584,
     January 2003). While the special inquiry did not specifically include a review of
     the Los Alamos purchase card systems, it did note weaknesses in the laboratory's
     controls over purchase cards, including: failure to properly account for controlled
     property; purchase of restricted items in violation of laboratory policies; and failure
     to properly manage cardholder spending limits.

 •   Sandia National Laboratories Procurement Card Program (WR-B-02-03, August
     2002). The audit found that Sandia procurement cardholders bought restricted
     items, split purchases to avoid dollar limits, and allowed unauthorized users to
     charge purchases to their accounts.

 •   U.S. Department of Energy's Purchase Card Programs--Lessons Learned
     (I01OP001, February 2002). This report identified lessons learned which can be
     used to improve the operation and performance of the purchase card programs
     including: developing comprehensive guidelines for purchase card processes;
     clearly delineating unallowable and non-reimbursable items; taking aggressive steps
     to assure compliance with established policies and procedures; and establishing a
     system that provides a full accounting of the number of cardholders, cardholder
     status, and spending limitations.

 •   Assessment of Changes to the Internal Control Structure and Their Impact on the
     Allowability of Costs Claimed by and Reimbursed to Bechtel BWXT Idaho, LLC
     Under Department of Energy Contract No. DE-AC07-99ID13727 (WR-V-02-01,
     October 2001). The review found that an employee used a Government purchase
     card to buy property for personal or non-contract use; that items such as clothing
     and small tools were routinely purchased without following the proper purchase
     card processes; a lack of segregation of duties; and inadequate review and approval
     of purchases.

 •   Sandia National Laboratories Personal Property Accountability (DOE/IG-0523,
     September 2001). The audit found that the Sandia property database was not
     accurate. Property was not always included in the database, or could not always be
     physically located.

 •   Inspection of Lawrence Livermore National Laboratory Credit Card Usage and
     Property Management Concerns (INS-O-01-01, February 2001). The review
     sampled nearly 13,000 of 70,000 credit card transactions in FY 1999. The review
     did not provide an overall quantification of questioned costs, but identified
     weaknesses in the Livermore credit card program including failure to properly
     account for Government property purchased by credit cards, manipulation (by

________________________________________________________________
Page 13                                              Prior Reports
Appendix 3 (continued)____________________________

 •   vendors) of pricing to circumvent cost limitation policies, and the failure to obtain
     competitive bids (including split purchases).

 •   Credit Card Usage at the Ohio Field Office and the Fernald and Miamisburg
     Environmental Management Projects (ER-B-99-04, March 1999). The Ohio Field
     Office, Fernald and Miamisburg Environmental Management Projects, and
     Babcock and Wilcox appeared to be using credit cards for appropriate purposes and
     within established limitations. Fluor Daniel, however, was not. The audit
     identified $42,000 in unallowable costs out of total credit card charges incurred by
     Fluor Daniel in FY 1998 of $3.6 million. Items unallowable per Fluor Daniel's
     contract, yet purchased via credit cards, included employee morale and recognition,
     items given to employees as safety incentives, and photos and memorabilia for
     community involvement and charitable activities.

 •   Audit of the Bonneville Power Administration's Management of Information
     Resources (WR-B-96-06, April 1996). The audit found that many credit card
     purchases of computer-related equipment were made by employees whose authority
     to buy was not properly documented, purchasing files lacked all documentation, and
     some purchases exceeded their purchase limits. The audit found that $90,000 of
     equipment was bought by personnel without documented purchase authority, and
     about $182,000 of purchases lacked supporting invoices. The audit methodology
     included a statistical sample of 137 items of computer-related equipment from a
     universe of almost 13,000 items included in Bonneville's property records.

Government Accountability Office Reports

 •   Lawrence Livermore National Laboratory: Further Improvements Needed to
     Strengthen Controls Over the Purchase Card Program (GAO-04-986R, August
     2004). Weaknesses in Livermore's purchase card program increased the lab's risk
     of improper purchases. For example, GAO found purchases split to circumvent
     single purchase limits, purchases without evidence of pre-approval, purchases
     deemed to be wasteful because they were excessive in cost and/or were of
     questionable need, and purchases without adequate supporting documentation.

 •   Lawrence Berkeley National Laboratory: Further Improvements Needed to
     Strengthen Controls Over the Purchase Card Program (GAO-04-987R, August
     2004). Internal control weaknesses in Lawrence Berkeley's purchase card program
     increased the lab's risk of improper purchases. For example, GAO found split
     purchases, purchases of restricted items without documented pre-approval, wasteful
     purchases, and inaccuracies in the lab's property database.

 •   Pacific Northwest National Laboratory: Enhancements Needed to Strengthen
     Controls Over the Purchase Card Program (GAO-04-988R, August 2004). The
     audit identified control weaknesses in the lab's purchase card program that need to
     be strengthened to reduce the risk of improper purchases. For example, GAO found


________________________________________________________________
Page 14                                              Prior Reports
Appendix 3 (continued)____________________________

     split purchases, wasteful purchases, purchases of prohibited items, sharing of
     purchase cards, and lack of adequate supporting documentation.

 •   Sandia National Laboratories: Further Improvements Needed to Strengthen
     Controls Over the Purchase Card Program (GAO-04-989R, August 2004).
     Internal control weaknesses in Sandia's purchase card program increased the
     laboratory's risk of improper purchases. For example, GAO found split purchases,
     wasteful purchases, untimely review and approval of purchases, inadequate
     supporting documentation, and inaccuracies in the laboratory's property database.




________________________________________________________________
Page 15                                              Prior Reports
Appendix 4______________________________________




________________________________________________________________
Page 16                                     Management Comments
Appendix 4 (continued)____________________________




________________________________________________________________
Page 17                                     Management Comments
Appendix 4 (continued)____________________________




________________________________________________________________
Page 18                                     Management Comments
Appendix 4 (continued)____________________________




________________________________________________________________
Page 19                                     Management Comments
Appendix 4 (continued)____________________________




________________________________________________________________
Page 20                                     Management Comments
                                                             IG Report No. DOE/IG-0675

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
                                               and cost
effective as possible. Therefore, this report will be available electronically through the Internet at
                                       the following address:

               U.S. Department of Energy Office of Inspector General Home Page
                                    http://www.ig.doe.gov

  Your comments would be appreciated and can be provided on the Customer Response Form
